USCA11 Case: 20-12253

Date Filed: 09/21/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-12253-G
ELLIS KEYES,
Plaintiff-Appellant,
versus
MATT WILSON,
CITY OF FORT PAYNE, ALABAMA,
Defendants-Appellees.
Appeal from the United States District Court
for the Northern Distric t of Alabama
ORDER:
Appellant’s motion for leave to proceed in forma pauperis is DENIED because the appeal
is frivolous. See Napier v. Preslicka, 314 F.3d 528, 531 (11th Cir. 2002).
r

a

STATES CIRCUIT JUDGE

USCA11 Case: 20-12253

Date Filed: 10/21/2020

Page: 2 of 2

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-12253-G

ELLIS KEYES,
Plaintiff - Appellant,
versus
MATT WILSON,
CITY OF FORT PAYNE, ALABAMA,
Defendants - Appellees.

Appeal from the United States District Court
for the Northern District of Alabama
ENTRY OF DISMISSAL: Pursuant to the 11th Cir.R.42-l(b), this appeal is DISMISSED for
want of prosecution because the appellant Ellis Keyes has failed to pay the filing and docketing
fees to the district court within the time fixed by the rules, effective October 21, 2020.
DAVID J. SMITH
Clerk of Court of the United States Court
of Appeals for the Eleventh Circuit
by: Lee Aaron, G, Deputy Clerk
FOR THE COURT - BY DIRECTION

Case: 7:19-cv-00041-REW Doc #: 6 Filed: 05/20/19 Page: 1 of 4 - Page ID#: 20

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY
SOUTHERN DIVISION
PIKEVILLE
ELLIS KEYES,

)
)
)
)
)
)
)
)
)
)

Plaintiff,
v.
MATT WILSON and CITY OF
FORT PAYNE, ALABAMA,
Defendants.
$$$

$$$

$$$

No. 7:19-CV-41-REW

ORDER

j(c

aft

In this § 1983 action (DE 1 - Complaint), pro se Plaintiff Ellis Keyes moves to proceed in
forma pauperis. DE 3. The Court, on review of Keyes’s sworn indigency claims, see id., finds the
28 U.S.C. § 1915(a)(1) requirements satisfied and grants Keyes pauper status.
Accordingly, the Court screens this matter under 28 U.S.C. § 1915(e)(2). See id.
(“Notwithstanding any filing fee ... the court shall dismiss the case at any time if the court
determines that... (B) the action ... is frivolous ... [or] fails to state a claim on which relief may
be granted[.]”); see also Apple v. Glenn, 183 F.3d 477, 479 (6th Cir. 1999) (Even in the absence
of an IFP request, “a district court may, at any time, sua sponte dismiss a complaint for lack of
subject matter jurisdiction pursuant to Rule 12(b)(1) of the Federal Rules of Civil Procedure when
the allegations of a complaint are totally implausible, attenuated, unsubstantial, frivolous, devoid
of merit, or no longer open to discussion.”).
A complaint must set forth sufficient allegations to “state a claim to relief that is plausible
on its face.” Ashcroft v. Iqbal, 129 S. Ct. 1937, 1949 (2009). The Court screens frivolous
complaints. See Neitzke v. Williams, 109 S. Ct. 1827, 1831-32 (1989) (describing as “frivolous[,]”

Case: 7:19-cv-00041-REW Doc #: 6 Filed: 05/20/19 Page: 2 of 4 - Page ID#: 21

claims lacking “an arguable basis either in law or in fact”); Apple, 183 F.3d at 479. When testing
pro se pleading sufficiency, the Court applies a tolerant construction, accepting as true all nonconclusory factual allegations and liberally construing legal claims toward encompassing a valid
claim for relief. Davis v. Prison Health Servs., 679 F.3d 433, 437-38 (6th Cir. 2012). The Court’s
liberal construction obligation has limits. Wells v. Brown, 891 F.2d 591, 594 (6th Cir. 1989);
Wilson v. Lexington Fayette Urban County Government, No. 07-CV-95-KSF, 2007 WL 1136743
(E.D. Ky. April 16, 2007). The Court will not “conjure allegations on a litigant’s behalf.” Erwin
v. Edwards, 22 F. App’x. 579, 580 (6th Cir. 2001); see also Coleman v. Shoney’s, Inc., 79 F. App’x
155, 157 (6th Cir. 2003) (“Pro se parties must still brief the issues advanced with some effort at
developed argumentation.”).
Background
Keyes explains that Fort Payne, Alabama, law enforcement arrested him on May 12, 2019,
and charged him with carrying a concealed weapon without a permit. DE 1 at 2. Keyes is out on
bail pending a July 29, 2019, hearing to answer the charges. Id. Keyes, referencing the Second
Amendment and Fourteenth Amendments, contends that the Alabama officers conducted an
unlawful search and seizure and lacked probable cause to arrest him. Id. at 1-2. Keyes seeks
damages, injunctive relief, and removal of the state criminal proceeding to this Court for
adjudication. Id. at 3.
The Court, on full review, concludes that this matter should, per Younger v. Harris, 91 S.
Ct. 746 (1971) and its progeny, be stayed pending resolution of the state proceedings. “Younger
holds that federal courts must abstain from taking jurisdiction over federal constitutional claims
that may interfere with ongoing state proceedings.” Gakuba v. O'Brien, 711 F.3d 751, 753 (7th
Cir. 2013). Younger applies when state criminal proceedings are (1) currently pending, (2) involve

2
i

Si

%

Case: 7:19-cv-00041-REW Doc #: 6 Filed: 05/20/19 Page: 3 of 4 - Page ID#: 22

an important state interest, and (3) afford “the plaintiff an adequate opportunity to raise
constitutional claims.” Carroll v. City of Mount Clemens, 139 F.3d 1072, 1074 (6th Cir. 1998).
Here, Keyes’s suit “for damages under 42 U.S.C. § 1983 ... is a textbook case for Younger
abstention.” Id. at 1075. The Alabama criminal charges pend, the state has a clear and vital interest
in enforcing its criminal laws, and Plaintiff may challenge the constitutionality of the search,
seizure, and his arrest in the Alabama proceedings. Thus, the Court, out of “an abundance of
caution” and with a nod to comity, stays this suit. Habich v. City ofDearborn, 331 F.3d 524, 534
n.4 (6th Cir. 2003) (“[SJtaying the suit protects the plaintiff whose federal claims were not resolved
on the merits in state court.”).1
For these reasons and under the applicable standards, the Court ORDERS as follows:
1.
2.

The Court GRANTS DE 3;
The Court STAYS this matter pending resolution of Keyes’s Alabama criminal
proceedings; and

i

The Court recognizes that the stay amounts to an effective dismissal of Keyes’s removal claim.
This result is intentional. Keyes cites to no authority for this relief. Despite forgiving pro se claim
construction, the Court, as stated, will not “conjure allegations on a litigant’s behalf.” Erwin, 22
F. App’x. at 580. Moreover, although 28 U.S.C. § 1443 authorizes removal of criminal
prosecutions under certain circumstances, none is present here. First, § 1443 permits removal only
to “the district court of the United States for the district and division embracing the place wherein
it is pending[.]” 28 U.S.C. § 1443. Second, Plaintiff does not claim an equal protection violation
and thus subsection (1) is inapplicable. Id. § 1443(1) (authorizing removal for prosecutions
“[ajgainst any person who is denied or cannot enforce in the courts of such State a right under any
law providing for the equal civil rights of citizens of the United States, or of all persons within the
jurisdiction thereof’). Finally, subsection (2) removal is unavailable to Keyes because he is not a
“federal officer[,]” a “person[ ] assisting such [an] officer[ ] in the performance of’ his official
duties, or a state officer. Detroit Police Lieutenants & Sergeants Ass'n v. City ofDetroit, 597 F.2d
566, 568 (6th Cir. 1979) (internal citations and quotation marks omitted) (describing the categories
of defendants that may invoke § 1443(2)). Thus, the Court dismisses the removal claim as
frivolous.
3

Case: 7:19-cv-00041-REW Doc #: 6 Filed: 05/20/19 Page: 4 of 4 - Page ID#: 23

3.

Keyes SHALL file a status report regarding the status of his criminal case within
90 days of this Order. The Court bases this deadline on Plaintiffs representations
regarding the'Alabama schedule.

If the state court schedule changes, Keyes may request an extension. However, if Keyes fails to
submit the ordered report or request an extension on or before the 90-day deadline, the
Court will iikeiy dismiss this matter (without prejudice) for failure to prosecute. Keyes
initiated this suit and it is his responsibility to litigate it. Here, that duty includes a specific
obligation to keep the Court apprised of the related criminal case’s status.
This 20th day of May, 2019.

|p|| & Signed By:
Mm m £ Robert E. Wier
mm
United States District Judge

4

U.S. District Court
'!;!

Northern District of Alabama
2020 FEB - 5 AK>U<?

Keyes

U-S. DISTRICT COURT
N.D. OF ALABAMA

v.
Wilson et al.

4:19-cv-OI 717-CLM
Status Report 02-18-20

Plaintiff respectfully submits status report update with the Municipal
Court proceedings below to include Motion To Dismiss attached here with
offer for settlement, with all due respect, as a matter of law in the interest of
justice, the pending charge of Carrying Concealed Weapon without Permit
to be dismissed in compliance with Alabama, Kentucky and Federal
Constitutional Law and in compliance with this courts INITIAL ORDER: All
parties should give early consideration to the possibility of settlement to avoid
unnecessary costs and fees.
Respectfully

Ellis Keyes, Movant Propria Persona Feb’ 4th, 2020
P O Box 1073
Whitesburg Kentucky 41858-1073
(606) 821-9815

1

MOTTO DISMISS

el I iskeyes@ya hoo.com

IN THE MUNICIPAL COURT OF FORT PAYNE, ALABAMA
MUNICIPALITY OF FORT PAYNE
V.
ELLIS LEONARD KEYES, DEFENDANT
Case # MC19-261

Monday February 24th, 2020 4PM

MOTION TO DISMISS
Now comes Ellis Keyes and moves to dismiss the
misdemeanor. Pursuant to Rules 13.5(b) and (c)(1) by a motion to dismiss
under Rule 15.1. Under this rule, the form or styling of the motion is not
important, and substance shall govern over form. Rule 15.2. Objections
based on defects in the commencement of the proceeding or in the charge.
15.3. (d) The lack of subject matter jurisdiction or the failure of the charge to
state an offense may be raised by the court or by motion of the defendant at
any time during the pendency of the proceeding. ...
Alabama honors licenses issued by any state that also honors
Alabama’s Licenses, provided that the license holder is not a resident of
Alabama. 13A-11-85 Reciprocity for Licenses Issued in Other States.
Kentucky respects the 2nd amendment and allows Alabama citizens the
same respect to honor their permits to carry concealed from the state of
Alabama in the State of Kentucky. So it may please the court to grant
dismissal and settle to dismiss adverse claims by not prosecuting any further,
to save the time and cost of litigation in state and federal district courts and
allow an honorable resolution with the least inconvenience to all
concerned.

2

MOTTO DISMISS

A NEW SECTION OF KRS CHAPTER 237 AS FOLLOWS: 5 (1)
Persons age twenty-one (21) or older, and otherwise able to lawfully possess a
firearm, may carry concealed firearms or other concealed deadly weapons 7 without
a license in the same locations as persons with valid licenses issued 8 under KRS
237.110.
Being that I am domiciled in Kentucky, in order to be penalized for an out
of state offence, the state of Kentucky must punish the same
conduct. However Kentucky is a Constitutional Carry State pursuant
to 2019 Senate Bill 150, any person age twenty-one (21) or older, and
otherwise
able
to lawfully
possess a firearm,
may
carry
concealed firearms or other concealed deadly weapons without a license in
the same locations as persons with valid Kentucky CCDW license issued
under KRS 237.110. Kentucky allows any person not prohibited from
possessing a firearm to carry a loaded or unloaded firearm in a vehicle in
any closed container, compartment or storage space installed as original
equipment in a motor vehicle by its manufacturer, including but not limited to
a glove compartment, center console or seat pocket regardless of whether
the enclosed container or storage space, or compartment is locked, unlocked
or does not have a locking mechanism. No person or organization, public or
private, may prohibit another person from keeping a loaded or unloaded
firearm or ammunition, or both, in a vehicle.... Kentucky law provides that the
firearm may be removed from the vehicle or handled in the case of selfdefense, defense of another, defense of property or as authorized by the
owner, lessee or occupant of the property. An employer that fires, disciplines,
demotes or otherwise punishes an employee who is lawfully exorcising one
of these rights is liable in a civil action for damages and an injunction.
Reciprocity for licenses issued in other states.

Alabama authorizes that: A person licensed to carry a handgun in any state shall be
authorized to carry a handgun in this state. This section shall apply to a license
holder from another state only while the license holder is not a resident of this
3

MOTTO DISMISS

state. A license holder from another state shall carry the handgun in compliance
with the laws of this state. AL Code § 13 A-11-85 (2013)
The same logic is clearly shown by the Concealed Carry
Reciprocity Act of 2019, introduced with the language ... by any state or be
eligible to carry a concealed firearm in his or her state of residence.
(Emphasis added) as is pursuant to the supreme law of the land, the U S
Constitution Second Amendment.
CONCLUSION
It is unlikely this will ever happen again because there is no case to be
made under the circumstances to prosecute defendant for having no permit
in Alabama so I offer to settle and dismiss the related civil rights action and
resolve this matter.
By law of the states of Kentucky and Alabama and in expressed will of
congress shown, there is no legal basis or case to prosecute defendant for
the charge of not having a permit and it is just and proper to dismiss the
criminal charge as moot, null and void.
Therefore to settle this matter let it be dismissed and I will not prosecute
in the related federal civil action because there will be no further need to.
Kentucky honors Alabamians permits on the grounds of reciprocity with full
faith and credit. The U S Constitution as the supreme law and the second
amendment justifies therefore to let motion to dismiss be granted.
Respectfully

Ellis Keyes, Movant Propria Persona Feb’ 4th, 2020
P O Box 1073 Whitesburg Kentucky 41858-1073
Proposed ORDER

4

MOTTO DISMISS

Upon good cause shown, Defendant motion to dismiss is granted. Return
the Glock taken from Ellis Leonard Keyes by all means available without
delay.
Dated

Judge, Municipal court of Fort Payne Alabama

AFFIDAVIT
NOW comes defendant, ELLIS KEYES, who having been duly sworn did depose
and say: In the interest ofjustice please dismiss the criminal charge against me. The
neighboring county of Wise Virginia has declared itself a 2nd amendment Sanctuary
with broad support, as has the jurisdictions of Harlan Kentucky and my own home
place in Eastern Kentucky’s Letcher County. I request my property be returned to
me, I have committed no crime or harm of any kind to anyone.

I will self-correct

from this experience holding all blameless upon dismissal of the criminal charge.
Back pain and risk of exposure related pneumonia due to Cardio Obstructive
Pulmonary Disease makes my ability and endurance limited, requires me to stay near
home.
I waive oral argument, submitting by affidavit my testimony. I am completely
innocent of the charge. I have not committed any crime or caused harm of any kind.
5

MOTTO DISMISS

Respectfully
Ellis Keyes
Sworn and subscribed before me this
Day of .

f

2020.

NOTARY *

PROOF OF SERVICE
I, Ellis Keyes, declare that on this date I have served the enclosed Motion to Dismiss, Affidavit and Status
Report, by depositing an envelope containing the above document in the United States mail properly
addressed to each of them and with first-class postage prepaid, mailed this 14th day of February, 2020,
those served copies by certified mail return receipt to the following: Glenn Shedd, City of Fort Payne
Judge, 100 Alabama Ave NW, Fort Payne, AL 35967 and Steve Bussman, City Prosecutor, 100 Alabama
Ave NW, Fort Payne, AL 35967 and Donna Roberts, Magistrate, 100 Alabama Ave NW, Fort Payne, AL
35967 and Clerk of the Municipal Court, 100 Alabama Ave NW, Fort Payne, AL 35967

MUNICIPAL COURT, City of Fort Payne, 100 Alabama Ave NW, Fort Payne, AL
35967. (265) 845-6728 & United States District Court, Sharon N. Harris, Clerk, Hugo
Black Federal Courthouse, 1729 5th Avenue North, Birmingham Alabama 35203
Respectfully Submitted.'5^

T

Ellis Keyes, Propria Persona, P O Box 1073, Whitesburg Kentucky 41858-1073
(606) 821-9815 elliskeyes@yahoo.com

6

MOTTO DISMISS

FILED

Case 4:19-cv-01717-CLM Document 24 Filed 05/29/20 Page 1 of 3

2020 May-29 PM 02:32
U.S. DISTRICT COURT
N.D. OF ALABAMA

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
MIDDLE DIVISION
ELLIS KEYES,
Plaintiff,
v.

MATT WILSON, et al.,
Defendants.

}
}
}
}
}
}
}
}
}
}

Case No. 4:19-CV-01717-CLM

DISMISSAL ORDER
This case is before the court on Plaintiff Keyes’ failure to comply with this
court’s May 12, 2020 order (doc. 22), as well as several of this court’s previous
orders. In its May 12, 2020 order, this court directed Plaintiff Keyes, who is
proceeding pro se, to provide a status report on his pending Alabama state court
criminal case. The order was issued after the court has received multiple status
reports from Plaintiff Keyes which included insufficient information to determine
the status of Plaintiff Keyes’ criminal proceeding.
The court’s most recent order included language that warned Plaintiff Keyes
that failure to completely comply with the order “SHALL result in the dismissal of
this case for failure to prosecute and failure to comply with the court’s orders.”
Doc. 22. (emphasis in original). Specifically, the court ordered Keyes to provide
the following information:

Case 4:19-cv-01717-CLM Document 24 Filed 05/29/20 Page 2 of 3

1. A narrative status report which explains what has occurred in Keyes’
related criminal proceeding in state court, including whether he
appeared before the court on February 24, 2020, what correspondence
he has received if he failed to appear, and the status of his motion to
dismiss;
2. An explanation of the attached service notifications that Keyes
provided in his last status report, including how the individuals served
relate to this case, what documents Keyes served upon those
individuals, and which case the service was intended for;
3. A copy of the docket sheet and all documents Keyes has sent or
received in the related state court case.
Id.
The court requested very specific information regarding Keyes’ criminal
proceeding because Keyes had repeatedly failed to provide information on the status
of his criminal proceedings in the past. See, e.g. Docs. 21, 18, 17.
Keyes responded to the court’s order on May 18, 2020. Doc. 23. In his
response, Keyes mentioned his motion to dismiss by stating “Motion to dismiss offer
for settlement filed and served had no response from defendant bringing us to
standstill.” This provides this court with little clarity, as Keyes is the defendant in
the underlying criminal proceeding. More importantly, Keyes completely ignored

Case 4:19-cv-01717-CLM Document 24 Filed 05/29/20 Page 3 of 3

all of the other requirements that this court directed Keyes upon, despite the court’s
warning that a failure to address each of the topics listed above would lead to
dismissal.
The Federal Rules of Civil Procedure “expressly authorize a district court to
dismiss a claim ... or entire action for failure to prosecute or obey a court order or
federal rule.” State Exchange Bank v. Hartline, 693 F.2d 1350, 1352 (11th Cir.
1982); see Fed. R. Civ. P. 41(b-c). Additionally, a district court has “inherent ...
authority to enforce its orders and ensure prompt disposition of legal actions.” State
Exchange, 693 F.2d at 1352.
Plaintiff Keyes has failed to obey the court’s May 12, 2020 order (doc. 22),
as well as previous orders, despite the court’s express warning about the
consequences of his failure to comply. Accordingly, the court hereby ORDERS
that this action shall be, and is, DISMISSED without prejudice for failure to
prosecute.
The Clerk of Court is DIRECTED to mail a copy of this Order to Plaintiff
Keyes at his address of record.
DONE and ORDERED this 29th day of May, 2020.

COREY 1//MAZE
UNITED STATES DISTRICT JUDGE

•aai^O s^Jap
aqi ui 9|qe|jeAe
Sj Suj|!j sjqi

uiojj

leuajeiu leuomppv

